DOCKER NUMBER.

 

 

IN THE UNITED STATES SUPREME COURT

UNITED STATES OF AMERICA
Plaintiff/Respondent

vs.

ERIC SHANE WORLEY
Defendant/Petitioner

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Eric Shane Worley, by and through counsel appointed by the lower
courts pursuant to 18 U.S.C. ยง3006A, asks leave to file the attached petition for a
Writ of Certiorari without prepayment of costs and to proceed in forma pauperis, in
accordance with Rule 39, Supreme Court Rules. In support of this motion
Petitioner would show that he has previously been granted leave to proceed in forma
pauperis in the following courts:
1, United States Court of Appeals for the Sixth Circuit,
United States of America v. Eric Shane Worley
C.A. No. 20-5924.
2. United States District Court for the Eastern District of Tennessee
at Chattanooga,

United States of America v. Eric Shane Worley
1:19-CR-84

(Signature on following page)
Respectfully submitted,

JOHN ALLEN BROOKS

( [.

orney for Eric Shane Worley
707 Georgia Avenue, Suite 103
P.O. Box 466
Chattanooga, TN 37401
423/266-9404
BPR # 006395
